PETITION FOR REHEARING
US SUPREME COURT
Ait

i3

WOMACK
VS
OXLEY

Three things I don't recall bringing up in the first petition but that are of national
significance.
A government official using their power to deny a citizen of the united states
their right to trial by jury. In Cleveland County NC, when my mother's
restoration of competency was brought before the Cleveland County Court,
Oxley and Guardian Ad Litem conspired to motion to deny my mother the
right to trial by jury in a civil case. The Clerk of Court who was friends with
the pair, accepted the motion and denied my mother the right to trial by jury.
Again, Oxley works for Rutherford County Social Services, thus making her a
government worker. Rutherford County Social Services was behind putting
my mother in a nursing home to begin with.
I believe Oxley falsified documents in an attempt to undermine a court
ruling. My mother's attorney, Erica Erickson got my mother to sign my
sister's estate over to me because she knew that if my mom got the estate she
would be in danger of losing her Medicaid. Oxley didn't care, and claimed to
file a document revoking my mom's decision, There is a document when she
stated it. Yet later on, Oxley filed for a court hearing to have the renunciation
of the estate heard in court. Then later still, she dismissed her motion to
revoke my moms renunciation. How can you dismiss something that allegedly
has already been done by someone???
When Oxley represented my mother in court during the first lawsuit
(Womack VS Steve Owens, John Carroll Et. Al. and Adena Widener et. Al.
she did not reveal that she worked for John Carroll at Social Services, which
is a conflict of interest. Oxley was appointed my Mom's Guardian Ad Litem.
Oxley motioned for the case to be dismissed. Again, Oxley was not named in
that lawsuit in any manner. As part of her gatekeeper order, she included
that case. I believe this is an attempt to cover up corruption. to cover up that
she was under a conflict of interest.
When government officials use gatekeeper orders to cover up corr tio
is
time to make laws to penalize them for it.

CERTIFICATION
I, CARL WOMACK DO CERTIFY THAT THE ENCLOSED PETITION FOR
REHEARING WAS DONE IN GOOD FAITH AND NOT FOR DELAY.

I ALSO CERTIFY THAT THE ENCLOSED DOCUMENTS ARE OF
SUBSTANTIAL GROUNDS NOT PREVIOUSLY PRESENTED, BY THE BEST OF
MY KNOWLEDGE.

CERTIFICATE OF SERVICE
I CARL WOMACK DO CERTIFY THAT A COPY OF THE ENCLOSED PETITION
IS BEING SENT TO THE ATTORNEY FOR MERRIMON OXLEY, NAMELY ANN
HORNTHAL

SIGNED

